 Department of Health and Human Services
          OFFICE OF
    INSPECTOR   GENERAL




   MANAGEMENT ISSUES IN THE 

COMMUNITY HEALTH REPRESENTATIVE 

           PROGRAM 

                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessmentsof HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECI’IONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Regional Inspector
General for the Office of Evaluation and Inspections, and Natalie Coen, Deputy Regional
Inspector General, Office of Evaluation and Inspections, Region V. Participating in this prject
were the following people:

Region V                                                                  Headquarters

Barbara Butz, Team Leader                                                 Alan Levine
Jennifer Antico, Lead Analyst 

Jean Dufresne 

Jo Lynn Antonik 

              EXECUTIVE                          SUMMARY
PURPOSE

This report describes management issues in the Community Health Representative
(CHR) program.

BACKGROUND

The CHR program is based on the concept that indigenous community members,
trained in the basic skills of health care provision, disease control, and prevention, can
successfully effect change in community acceptance and utilization of health care
resources. The CHR program is governed by the Indian Health Care Improvement
Act of 1988. In Fiscal Year (FY) 1992, the Indian Health Service (IHS), within the
Public Health Service (PHS), spent $39 million for 1,544 CHRs in 260 programs. The
program is funded through contracts, grants, or cooperative agreements based on the
Indian Self-Determination and Education Assistant Act (P.L. 93-638), hereafter
referred to as 638.

In 1983, Congress mandated that IHS establish guidelines, goals, and clear evaluation
standards for the CHR program. The IHS produced guidelines and goals for the
program which are written in Chapter 16 of the Indian Health Manual. They also
developed two management tools: the Scope of Work (SOW), for planning purposes,
and the CHR Information System II (CHRIS II), for reporting.

Although Chapter 16 states that tribal CHR programs will be evaluated on a triennial
basis, IHS has neither developed evaluation criteria nor conducted a national
evaluation of the program.

We contacted 403 people involved with the program at the national, area, and local
levels to obtain information about factors which make CHR programs strong. See our
report entitled “Revitalizing the CHR Program” (OEI-0501070). During the course of
obtaining that information, we discovered selected management issues that are
described in this report.

SCOPE AND METHODOLOGY

Our intent in this study was to identify factors that make CHR programs strong,
factors which IHS and tribes could use to manage and evaluate the program. During
the course of the study, certain management issues arose that we believe are
important; this report describes those issues.

Our companion report entitled “Revitalizing the CHR Program” (OEI-05-91-01070)
describes the factors that the 403 respondents for this study said make individual CHR



                                             i
programs effective, and why they make programs effective. It also describes how the
factors might be used to judge the effectiveness of a CHR program.

FINDINGS

MOST RESPONDENTS ARE NOT F~ILJXR                 WllX   THE GOAL AND
ORIEC7lVl.3 OF THE CHR PROGRAM.

Except for area CHR coordinators, respondents who knew the CHR program were
not familiar with its national goal or objectives.

THERE IS WZDESPREAD DISAGREEMENTABOUT                   7HE APPROPRhiljE      ROLE
FOR CHRs.

Although respondents agree that CHRs should be a part of the health care system,
there are widely varying opinions about how this integration should occur.
Respondents say that if there is not consensus on a role for CHRs, the program will
be less effective.

TRAN-SPORT IS A MYJOR UNRESOLmD                ISSUE IN THE CHR PROGRAM.

Compared to other services CHRs could provide, transpqrt is a disproportionately
large CHR activity. Respondents disagree on whether CHRs should be transporting
clients. Many see it as a needed service as well as what tribes want CHRs to do.

THE SOWAND       CHHS   II HAYE LIMITED        USEFULNESS.

We question the usefulness of the SOW as a planning tool, and the CHRIS II as both
a management tool and reporting system. Analysis of CHRIS II data raises questions
about its accuracy and reliability. Respondents also voiced mixed opinions on the
usefulness of the SOW and CHRIS II.

REEOMMENDATIONS

THE PHS, TOGElXER WITH TRIBES, SHOULD RE-EX4MINE                  lXE   CHR
PROGRAM TO DETERMINE   ITS FUTURE DIRECTION.

The PHS, and tribes, should consider the following options in determining the future
direction of the CHR program: retain it in its current form, revise it to become a
transportation program, or abolish it if it is no longer needed.

II; A CONSENSUS IS REACHED TO REVISE OR ABOLISH THE PROGM,    PHS
SHOULD DEVELOP XUE APPROPRIATE     LEGISLATM?  PROPOSALS TO DO SO.




                                          11
IF ITREUAINS   AS A BROAD-BASED HEALTH CARE PROGRAM, PHS SHOULD
DEWLOPA      MULTT-FACETED   NAZ!ONA STRATEGY TO REWlXLJZE THE
CHR PROGRAM

This strategy should include: (1) a clarification of the national goal and objectives, (2)
a revised national policy on transport, (3) development of performance indicators, (4)
improvement of the SOW and CHRIS II, (5) development of technical assistance and
training plans, and (6) periodic program evaluation.

COMMENTS

The Assistant Secretary for Planning and Evaluation and PHS commented on the
report. Both concurred with the findings and recommendation, and PHS described
steps that IHS has initiated to revitalize the CHR program. We made some editorial
changes in the report based on technical comments from ASPE. The full text of the
comments is in Appendix D.




                                            ...
                                            111
                            TABLEOFCONTENTS 


                                                                                          PAGE

EXECUTIVESUMMARY 


INTRODUmON                     ................................................. 
             1

FINDINGS            ...................................................... 
                  5

Goal amd Objectives ............................................... 
                         5

Role of CHRs .................................................... 
                           5

Transport ........................................................ 
                          6

Management Tools ................................................. 
                           9

RECOMMENDATIONS’                          ........................................... 
      13

Re-examine CHR Program .......................................... 
                          13

To Revise or Abolish Program, Develop Legislative Proposals ................                 13 


To Retain Program, Develop Strategy to Revitalize ........................                   13 


APPENDICES..                 ................................................... 


A:ChrisIIReport                ...............................................             A-l 


B: Scope of Work Form ...........................................                           B-l 


C:Endnotes ....................................................                             C-l 


D: Agency Comments                    ............................................         D-l 

                            INTRODUCTION

PURPOSE

We conducted this study to identify factors which make Community Health
Representative (CHR) programs strong, factors which could be used in the future to
plan, monitor, and evaluate these programs. This report describes management issues
that arose in the course of the study.

BACKGROUND

Program Hirtory

In 1968, under the 1921 Snyder Act (25 U.S.C. 13), Congress established the CHR
program within IHS. The program was intended to provide outreach health care services
for American Indian and Alaska Native tribal governments and organizations. It is based
on the concept that indigenous community members, trained in the basic skills of health
care provision, disease control, and prevention, can successfully effect change in
community acceptance and utilization of health care resources. A CHR is “a tribal or
Native community-based, well-trained, medically-guided, health care provider, who may
include traditional Native concepts in his/her work.“’

The program is currently governed by the Indian Health Care Improvement Act
Amendments of 1988. In Fiscal Year (FY) 1992, the Indian Health Service (IHS), within
the Public Health Service (PHS), spent $39 million for 1,544 CHRs in 260 programs
throughout the continental United States and Alaska. Currently, IHS spends about $1
million of this amount on training for CHRs, including funding a national training officer
and a number of training facilities.

The CHR program is funded through contracts, grants or cooperative agreement
arrangements with Native or tribal governments and organizations based on the Indian
Self-Determination and Education Assistance Act (P.L. 93-638), hereafter referred to as
638. The IHS is increasingly using 638 contracts as a mechanism to provide health
services to Indian people. Under them, tribes are delegated responsibility for
administering programs, and have great latitude in designing and operating them. The
IHS sets basic parameters and guidelines, and is responsible for management and
oversight of the national CHR program; however in terms of the day-to-day operation of
individual programs, IHS assumes more of a consultation and technical assistance role.

The program grew quickly from 1968 to 1980. At that time, however, Congress grew
concerned that the budget for the program could not be adequately justified. Program
activities had not been clearly documented and monitored by IHS, and programs varied
widely across tribes. Congress grew concerned about a lack of program goals and
objectives and an adequate reporting system, and reports that the CHR program was


                                             1
little more than a “jobs” or employment program for reservations. In FY 1981 and 1982,
Congress began to reduce the number of CHR positions, and in FY 1983 the program
came close to being eliminated. Although the program ultimately survived, Congress cut
513 slots from a peak of 2,293. This decline continued until FY 1990, when Congress
slowly began to increase slots to the 1,544 of today.

Program Admihirtration

In 1983, Congress mandated that IHS establish guidelines, goals, and clear evaluation
standards for the CHR program. In response, IHS established the position of a national
CHR program director and developed program goals, objectives and guidelines which are
written in Chapter 16 of the Indian Health Manual.

Individual CHR contracts are administered by the 12 IHS area offices. The national
CHR program director, in the Office of Health Programs under the Special Initiatives
Branch, has no direct line authority over these area offices or staff. In more of a
consultation or technical assistance role, that office develops and implements
management standards and tools, plans training, and conducts program reviews.

In each area office, a CHR coordinator is the primary contact with the national program
director and the one area staff person with direct responsibility for CHR programs.
Project officers also have certain program and fiscal responsibilities in connection with
monitoring contracts, including CHR contracts, and facilitating the interaction between
tribal CHR programs and the service unit or area health care programs. Most CHR
coordinators and project officers juggle CHR duties with other responsibilities.

The IHS uses two important management tools in the CHR program. The Scope of
Work (SOW) is a form tribes may use to plan their CHR programs. The CHR
Information System II, or CHRIS II, is a reporting system based on the SOW. Although
not required to use either the SOW and CHRIS II, at present most of the tribes are
doing so.

Chapter 16 states, “Tribal programs will be evaluated on a triennial basis, through the use
of a nationally developed instrument, with tribal consultation and concurrence.“’ To
date, however, IHS has neither developed national evaluation criteria or tools, nor
conducted a national evaluation of the program.

SCOPE AND METHODOLOGY

Our intent in this study was to identify factors that make CHR programs strong, factors
that IHS - and tribes - could use in the future as a basis to manage and evaluate the
program. During the course of the study, certain management issues arose that we
believe are important. This report describes these issues. Our companion report entitled
“Revitalizing the CHR Program” (OEI-05-91-01070) describes the factors that
respondents said make CHR programs strong.



                                            2

As background for the study, we conducted a review of literature: legislation and
regulations on the CHR program, the Indian Self Determination Act, and the Indian
Health Care Improvement Act; Chapter 16 of the IHS manual; annual reports, CHRIS II
reports and other documents related to the CHR program; and reports on Indian health.
We also spoke with persons in the Office of Management and Budget, and the Office of
the Assistant Secretary for Planning and Evaluation in the Department of Health and
Human Services (HHS).

Data collection took place in three phases. As this chart shows, we contacted over 400
respondents for the study.


                Respondents       1 Phase 1 Phase 2      Phase 3    Total
                National          16          23                    29
                Area              II22       I 30      I 10        I 62     II
                Local             II 16      I 58      I 25        I 99     II
                CHRs              ] 32        161        20         213
               Total1               76        272        55         403


Phase One: In November and December 1991, we visited 2 of the 12 IHS area offices
and 5 CHR programs, chosen in collaboration with IHS area coordinators to represent a
variety of types of programs. We talked with over 75 respondents: people involved in
creating the program; IHS staff in area offices; and people in CHR programs and service
units. We also held focus groups with area CHR coordinators and CHRs and talked to
the national training officer and persons from the National Association of CHRs.

We asked respondents, “What makes a CHR program strong (effective)?” We found
that their responses could be grouped into four broad categories, or:



                       Factors that Influence the Effectiveness
                                  of CHR Programs
                   Factor   1   Agreement on the role of the CHR 

                   Factor   2   Integration into the health care system 


               I/  Factor
                   Factor
                            3
                            4
                                Trib-d support and direction 

                                MS support and direction 





                                              3

Phase Two: In February, March, and April 1992, we contacted an additional 272
respondents to learn their perceptions about these four factors: how important are they,
and why?; if a factor is not present in a CHR program, is the program weakened?; and,
what can IHS do to strengthen or promote these factors?

  l	   At the national level, we talked to Congressional staff, people in the Office of the
       Assistant Secretary for Health in the Public Health Service, and IHS Headquarters
       staff.

  l	   At the area level, we chose five IHS area offices (Oklahoma City, Oklahoma;
       Aberdeen, South Dakota; Window Rock, Arizona, Navajo Nation; Portland,
       Oregon; and Nashville, Tennessee) which are diverse in terms of geography,
       program sizes and types, and together represent half of the 1,544 CHRs
       nationwide. We talked to area directors, CHR coordinators, and other health care
       professionals in these offices.
  l	   For respondents at the local, or program, level, we chose three CHR programs in
       each of these five areas (15 total). They were programs that had more than two
       CHRs, represented a geographic and programmatic mix, and agreed to participate
       in the study. We spoke by telephone with the tribal health directors, CHR
       supervisors, service unit directors, and health care professionals at these programs.
       We also contacted 161 CHRs. One of the 15 tribal officials we contacted
       responded to our inquiries.

  0	   We visited a third IHS area office and three other CHR programs in connection
       with a review conducted by the national CHR program director. We also talked
       to tribal health directors at a conference.

Phase Three: In April 1992, using a case study approach, we visited two CHR programs
in two IHS areas, to apply these factors in a “real life” situation. We chose the programs
in collaboration with the national program director, the CHR coordinator in each area,
and the tribes themselves. We contacted 55 respondents in this phase.

This study was conducted in accordance with the hterim Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             4

                                           FINDINGS
MOST RESPONDFH’IS ARE NOT FAMILIAR                            WITH THE GOAL AND
OBJECiTIVES OF THE CJ3.RPROGRAM.

In 1983, IHS developed a goal, objectives and guidelines for the CHR program which are
written in Chapter 16 of the Indian Health Manual.3



/I                                           cHRProgramGoal
     “The CHR Program was implemented to improve the health knowledge, attitudes and practices of
     Indian people by promoting, supportin& and asskxiug the IHS in deIivering~ a total health care
     program. The efforts of CHR program staff have produced an American Indian and Al&a Native
     health service delivey system, which provides for follow-up and continued contact with the health
     care delivery system at the community level, thereby meeting the most basic needs of the American
     Indian and Alaska Native population-’

     The goal of the CHR Program is to addresshcaIth care needs through the provfsiofi of community-
     oriented primary care services, including traditional Native concepts in multiple~settings, utilizing
     community-based, well-trained, medically-guided hcaIt.h care worker!&’



The 14 program objectives are mainly a listing of possible services such as home health
care, transport, language interpreter and health education. Other objectives include
activities such as development of an annual program plan, assurance of the availability of
appropriate IHS medical guidance to the CHR program, and compliance with the CHR
data collection plan.

Two-thirds of the local respondents in our study, and 40 percent of those from IHS area
offices, said they are not familiar with the goal and objectives of the CHR program. This
includes 2 of the 5 area directors, 9 of the 11 tribal health directors, 4 of the 8 service
unit directors, and 8 of the 12 public health nurses. In contrast, area CHR coordinators
not only,know the goal and objectives but emphasize that they help direct and assist
CHR programs: “Chapter 16 has been very handy. It is a guidepost or a guideline
overall, something for us to work with.”

THERE IS WIDESPREAD                 DISAGREEMENT             ABOUT THE APPROPRIATE                    ROLE
FOR CHRs.

In reviewing contracts, observing CHR programs, and talking to respondents, we found
that there are many different, and sometimes conflicting, opinions about what CHRs
should do. We found that a CHR can be an animal control officer, dental assistant,
janitor, billing clerk, data entry clerk, or appointment clerk in a clinic. Some people said
that tribal officials want CHRs primarily to transport or do “domestic” work: cutting



                                                       5

wood, making meals, or taking out garbage. At one program, we both observed and
were told that medical staff sometimes expect CHRs to act as “go-fers.”

Respondents say that CHRs should play a role in their tribe’s health care system, but there iv
no clear or con&tent view of that role.

We asked national, area, and local respondents to explain how they define an “effective”
program. Whether they mentioned CHRs providing outreach and advocacy, accessto
care, or delivering health services, respondents clearly believe that a CHR program
should be part of the tribe’s health care system. However, few offered specifics about
exactly what activities CHRs should undertake. Comments were vague and varied:
CHRs should be “health care workers,” they should work closely with a health care
professional (especially public health nurses), or, a “team approach” is important.

The CHR responses to questions reveal that they feel strongly that the program must be
linked with the health care system. However, they also disagree on the specifics of how
this should occur. For example, almost 60 percent ranked “working as a team with
medical staff‘ as the most important factor to make a CHR program strong. A strong
majority think that there should .be referrals between CHRs and medical staff (88
percent), CHRs should be included in meetings with medical staff (65 percent), and
medical staff should regard CHRs as competent (87 percent). Yet, CHRs disagree on
whether they should be “the eyes and ears of the community” or assistants to health care
professionals, and on whether they should work closely with or independently from health
care professionals.

Respondents say that if people do not agree on the role, CHRs may be less flective.

According to respondents, confusion or disagreement about what CHRs are supposed to
be doing can limit their effectiveness. Some said that CHRs, often “perceived as the
answer to everyone’s problems,” are pulled in different directions and asked to do
inappropriate things until they “burn out.” Others said that CHRs can become unfocused
and confused about what they should do, which can lower morale. The CHR services
may become fragmented and chaotic, lacking cohesiveness or continuity with other health
care services. Finally, some people said specifically that without a clearly defined role for
CHRs, a program could become focused solely on transport.

TRANSPORT IS A MAJOR UNRESOLVED                   ISSUEi IN THE CHR PROGRAM.

We did not set out in this study to specifically address the issue of transport as a CHR
role. However we quickly found that the subject arose repeatedly as we talked to
respondents and visited programs.

Historically, transport has been a major activity for CHRs, and transport, including the
delivery of medications, remains an allowable CHR service today. Chapter 16 sets forth
certain boundaries governing it. Transport shall be “within the local community to/from
an IHS or tribal hospital or clinic for routine, non-emergency problems, to a patient


                                              6
without other means of transportation, when necessary.“4 Transport “includes waiting
for a patient...to finish treatment.“’ Chapter 16 also states that programs must have a
tribally developed transportation policy, although there is no further explanation of
exactly what this means.

Dansport is a disproportionately   large CHR activity.

An analysis of the FY 1991 CHRIS II report (see Appendix A) reveals that as a
proportion of their total time (service hours plus travel hours), CHRs recorded almost a
quarter of their time in “transport/deliver.” As the chart below shows, this is more than
twice the proportion of time recorded for each of the four next highest services.
                              CHRs,erK¶mllc+lmorenmeul
                  t    transport(dehver than on top 4 other senkes
                  24   22.7
                  !a
                  20
                  18
                  16
                  14
                  12
                  10
                   8
                   6
                   4




At 8 of the 10 programs we visited, we observed that transport was a major, if not the
primary, CHR activity. When we asked people - CHRs, their supervisors, and many
others - to describe what CHRs did, they talked about transport. The transport they
described included delivering medications and commodities, and taking patients to clinics,
dialysis facilities, hospitals far away for delivery of babies, or funerals.

Even at a program where there is a written transportation policy, it didn’t appear to be
enforced, since most of the CHRs were heavily involved in transport. At another
program, where transport is clearly discouraged as a CHR activity, the CHRs said that
they still feel pressured on occasion to provide it.

Opinions of the CHRs at these programs about transport differed. Some seemed
satisfied with a transport role. Others “feel torn because we aren’t sure whether or not
we should be transporting people.” Still others seemed ambivalent, recognizing a need
for transport but wanting to do more. Some mentioned that because they were so
involved in transporting, they could not use many of the skills they learned in training -
which they regretted.


                                                7
Analysis of the CHRIS II reports at one of the case study sites showed 70 percent of
CHR time as transport; other reports and CHR logs confirmed this. (In fact, the logs
themselves are called “transportation verification forms.“) At the other case study site,
CHR logs showed that in 9 workdays, 2 CHRs transported almost 40 people and
delivered medications to 26; the only other activity noted in the logs was 5 home visits.
Also, the CHR supervisor’s narrative report to the tribe talked only of transport.

Respondents disagree on whether transport ir a desirable or legitimate CHR activity. Many
believe that it should be better dejined or limited

These quotes from respondents illustrate the range of opinions about transport in the
CHR program:

       “Transportation is a basic need and CHRs should be providing it.” 


       “Transport is an important service, but it is inappropriate for CHRs to be doing 

       this.” 

       “If CHRs are viewed as transporters, they are less effective and less involved in 

       other activities. Transport is not an optimal use of their skills and services.” 


       “Access to health care is essential, but it should be provided by IHS. It is 

       inefficient for CHRs to spend a great deal of their time driving people around.” 


The CHRs we surveyed seem to view transport as an integral duty. They made specific
comments to us about the need for more government cars, higher mileage
reimbursement, and money for auto insurance, comments which in and of themselves
would seem to indicate that transport is a significant activity for them. Yet they also
seem to want limits; three-quarters strongly favor a tribal, written, transportation policy
that “clearly describes what kind of transportation CHRs are and are not allowed to
provide.”

Respondents other than CHRs said that problems can arise if the role of transport in a
program is not clearly defined, or limited. This comment sums up what can happen:
“People have expectations for a ride from CHRs, so CHRs comply and therefore
activities in other areas are diminished and everybody is confused about the goals of the
program.”

There are many reasons why transport is a major CHR activity.

The main reason that transport may be the primary activity at many CHR programs is
because this is what tribes expect and want CHRs to do. During a focus group, we asked
respondents what they thought tribes wanted CHRs to do. The first answer was
“transport.“ Elsewhere we heard: “Tribal people don’t know the role of the CHR. They
think of it as transport.” Some CHRs told us that if they refuse to transport people,
there may be complaints to tribal officials, placing them in an awkward position since
they depend on those officials for their jobs.


                                              8
There are several other reasons, which we both heard about and saw for ourselves, why
transport may still be a major CHR activity:

  l	   At many reservations that cover huge areas or are remote from health care
       facilities, the need for transport is great.

  l	   Many families no longer accept responsibility for taking relatives to the doctor as
       they did in the past.

  l	   On some reservations, there is an increased need for transport to dialysis facilities,
       which are often hours away.

  0	   Health professionals sometimes take advantage of CHRs as “go-fers” to bring
       patients to clinic or deliver medications.

  0	   Tribes have not sought or used other resources (contract health care, for example)
       to provide transportation.

THE SOW AND CHRIS II HAVE LIMITED                 USE-.

In recent years, IHS has developed two important management tools for the CHR
program. The SOW is a document tribes can use to plan their CHR programs. The
CHRIS II is a reporting system based on the SOW. Although many tribes are apparently
now submitting the SOW and CHRIS II, they are not required to use them; they may
submit narrative reports instead.

The SOW provides a framework for tribes to plan their CHR programs. Appendix B
contains a copy of the SOW form. It is comprised of a combination of service categories
(e.g. health education, case management) and health areas (e.g. diabetes, cancer), which
together provide a matrix of 240 different categories into which projected CHR activities
can be placed.

The CHRs report their activities in CHRIS II using the SOW matrix of health areas and
services, as well as client age and gender, time spent on each service, place of service,
and number of clients served per service. They report activities for 1 week (consecutive
days) each month.

According to the IHS 1990 annual report on the CHR program, “CHRIS II is currently
providing valuable data to (1) assist tribal programs and area offices evaluate CHR
performance and (2) provide the national CHR program office the pertinent data to
prepare reports to Congress and others, as well as to justify the annual budget
appropriation.“‘j

The most important concept behind CHRIS II is that the activities reported for a CHR
program, and the amount of time spent in them, should generally match those projected
in the SOW.


                                              9
As nunagement took, the SOW and CHRIS II appear to have minimal bnpact on how
tribes run their CHR programs.

For a number of years, the national program director and area CHR coordinators have
encouraged tribes to use the SOW and CHRIS II to manage their CHR programs, and a
national Mangement Applications Guide is now being developed to move tribes in this
direction. Tribal CHR program managers should be comparing CHRIS II reports with
the SOW and redirecting CHR activities when necessary to make sure that CHRs are
doing what the tribe projected. However, these respondents say that many tribes are not
yet using the SOW and CHRIS II in this way.

A copy of two CHRIS II summary reports for 1991 is in Appendix A. After analyzing
these reports, we also believe that tribes are not using the SOW and CHRIS II to
manage programs. Furthermore, we think the data also show that tribes are not
directing their CHRs to provide health care services directed at specific health problems.
For example:

  0	   In 1991,-CHRs recorded almost 40 percent of their service time in training and a
       variety of administrative services, and 17 percent in “trans/del.” They recorded
       only 43 percent in specific health care services (e.g. case management, health
       education, and monitoring) to consumers.

  0	   Also in 1991, CHRs recorded over half of their service hours in the health areas
       of “not applicable, ” “other general medical,” and “unknown.” Also, the percent of
       service time recorded in “not applicable” rose from 12 percent in 1990 to 31
       percent in 1991.

   l   Overall, CHRs recorded only 10 percent of their senice hours. combined, in the
       health areas of substance abuse, diabetes, and cancer. Respondents commonly
       told us these were the most serious health problems in their communities, and
       they are well documented in the literature as significant Indian health problems.

We are also concerned that, as management tools, the SOW and CHRIS II are too
heavily focused on activities. They do not reflect the quality, effectiveness, and impact of
CHR services.

Anarysis of CHRIS II data also raises questions related to accuracy and reliability.

The development of the SOW and CHRIS II has been a process of continuous attempts
at improvement by IHS. The forms have been refined and simplified over time, and
training on their use has been conducted for many program directors, supervisors and
CHRs. However, IHS is aware that problems remain. In the year-end FY 1990 report
on the CHR program, IHS recommended that training of CHRs on using CHRIS II be
improved, and the language for the “other general medical” and “not applicable”
categories be refined to reduce the amount of time reported in them and to increase



                                               10 

reporting in other, more specific, areas. In addition, IHS will spend over $135,000 this
fiscal year on quality control for national CHRIS II data.

The two summary reports in Appendix A contain breakdowns of service time, number
served, and number of activities by health area and service. Some of the numbers, in
particular, raise questions about the accuracy and reliability of the data.

  0    The number of persons served in 1991 was 4,258,66X

  0	   The CHRs spent 17 percent of their service time on the service “trans/del”
       (transporting people and delivering medications).

  l	   The CHRs spent over half (56 percent) of their service time in the non-specific
       health areas “other general medical,” “not applicable,” and “unknown.”

  0	   The CHRs spent 33 percent of their service time on administrative services
       (“admin rep/ret,” “pt clerical,” “meetings,” “other admin”).

First, the data do not give us an.unduplicated count of how many people the CHR
program served in 1991. The 4.2 million figure is not only inaccurate but misleading; it is
clearly not an unduplicated count, since the entire American Indian/Alaska Native
population in the United States is only 1.5 million. Furthermore, IHS uses this figure to
calculate the average cost per person served, by dividing the amount funded for the
program by the total number served. This means that this cost figure is also misleading
because it counts a “person” more than once.

Next, the proportion of time reported for “trans/del,” at 17 percent, strikes us as low,
since transport appears to be such a major CHR activity. Or, is the definition of the
category in CHRIS II inaccurate in terms of the kinds of transportation that CHRs
actually provide?

Next we ask whether the large proportion of service time reported in non-specific health
areas, particularly “not-applicable” at 31 percent, accurately depicts what CHRs are
doing. Are the other, specific, categories, such as case management and monitoring, not
meaningful in terms of what CHRs actually do, and if so, why are they there? Or is it
that CHRs are not filling out their reports accurately because the categories are
confusing or unclear, or because the reporting process is too complicated?

As for the data reported in the services categories, our first observation is that many of
the categories are not services but activities - for example, training, record-keeping and
reporting, and meetings. This gives a misleading picture, then, of the time CHRs spend
providing services to consumers. Secondly, the large amount of time reported in these
categories raises the same questions about accuracy that we explained relative to the
health areas.




                                             11 

Finally, we are curious about the relatively large proportion of time devoted to
reports/recordkeeping - at 12 percent, the second highest, after transport/deliver. We
wonder whether this could be an unintended result of how the CHRIS II reporting
system works; that is, CHRs could be reporting the time they spend filling out CHRIS II
reports, which is time they do not spend during the other 3 weeks of the month. If so,
this figure is also an unreliable reflection of how CHRs are spending their time.

MANY AREA AND LOCAL RESPONDENTS ARE SOMEWHAT FAMILIAR                               WITH
THE SOW AND CHRIS II. OPINION IS MIXED ON THEIR USEFULNESS.

Two-thirds of the area and local respondents are familiar to some extent with the SOW
or CHRIS II. People generally see the SOW as useful for providing guidelines or
direction for CHR programs. However, they have some criticisms of CHRIS II: (1)
reports are far too detailed and burdensome to complete; (2) the data in CHRIS II are
misleading, inaccurate or inflated; (3) CHRIS II provides only a general or partially
accurate picture of what CHRs are doing; and, most of all, (4) CHRIS II does not reflect
the quality, effectiveness, or outcome of services.

Some people commented also that both the SOW and CHRIS II are “only as good as the
people filling them out,” or that they will only really be effective if tribes actively use
them to manage their CHR programs.

Area CHR coordinators, who work most closely with tribes, find both tools useful but
also identify problems. They appreciate the SOW as a tool for defining clear and specific
expectations for CHR programs but see a number of problems: some programs refuse to
use the SOW, people who fill it out do not understand it; some programs have projected
such small percentages over so many categories that “it is impossible for them to really
be workable;” and CHRs feel that the SOW has been imposed on them without their
input and therefore does not really define what they are doing. One person said also
that it is very important to give clear instructions on the SOW to tribes, and good
examples to follow.

As for CHRIS II, area CHR coordinators see it as a necessary accountability mechanism
but also have concerns: it “does not tell the story” since it contains data for only 1 week
per month; there is no mechanism to ensure that the forms are filled out accurately; and,
many tribal people do not value the information, so do not use it to manage their
programs.




                                            12 

                      RECOMMENDATIONS
When discussing what makes CHR programs strong, many respondents for this study also
raised deeper questions about the purpose and the management of the program. Their
comments, combined with our own observations at 10 programs, revealed some
fundamental problems at the heart of this program - a poor understanding of goals and
objectives, confusion and disagreement about the appropriate role of CHRs, especially
transport, and questions about the usefulness of certain management tools. Unless PHS
takes steps to address these concerns, we would have difficulty supporting the
continuation of the CHR program in its current form.

THE PHS, TOGETHER WITH TRIBES, SHOULD THOROUGHLY RE-EXAMINE
THE CHR PROGRAM TO DETERMINE ITS FUTURE DIRECTION.

Such an examination should take into account legislative intent, health care needs, and
current program practices and results. It should consider the following options:

  l	   Retain the program as a broad-based health care program, if they conclude that
       this is the greatest need;

  0	   revise the program to become primarily a transport program, if they conclude that
       transport is the greatest need;

  0	   abolish the orogram, if they conclude that it is no longer needed to meet Indian
       health care needs.

IF A CONSENSUS IS REACHED TO REVISE OR ABOLISH THE PROGRAM, PHS
SHOULD DEVELOP THE APPROPRIATE LEGISLATIVE PROPOSALS TO DO
so.

IF IT REMAINS AS A BROAD-BASED HEALTH CARE PROGRAM, PHS
SHOULD DEVELOP A MULTI-FACETED    NATIONAL STRATEGY TO
REVITALIZE THE CHR PROGRAM.

If PHS, together with tribes, decides that the CHR program should continue, and should
provide a wide variety of health care services, PHS should develop a broad national
strategy to address the problems described in this report. The following elements should
be included in such a strategy.

ClarjtL the national goal and objectives of the CHR program

The CHR program should be sharply focused and strategically geared to results. A
clearly defined framework, including goals and objectives, is needed for PHS and tribes
to effectively focus resources and management efforts on the program. We suggest that
PHS and tribes develop a consensus on the goal and objectives of the CHR program.


                                             13
They should consider: how CHR programs can be linked to other Indian health care
programs; what are and are not appropriate CHR activities; whether the program should
focus as a priority on specific health care problems or populations; and what outcomes or
measures of effectiveness should be established.

Then PHS should publish the goal and objectives in Chapter 16 and disseminate them
widely to tribes. The goal and objectives should serve as a basis for providing technical
assistance and developing and refining management tools for the program.

If transport remains an allowable CHR activity, develop a clear national policy which
govenls it.

As described in this report, most respondents for this study have only a general notion of
what the CHR program should be and what are appropriate CHR activities. Nationally,
transport appears to be a major CHR role. We question whether PHS should be
funding a program which is heavily transport, whether it is appropriate for CHRs to be
providing transport, and whether over $1 million annually should be spent on training
CHRs who are mainly transporters. Furthermore, given morbidity and mortality statistics
on Indian health, it seems clear that much more than transport is needed.

At the same time, we recognize that transport may be a legitimate need for some tribes,
and that PHS and tribes may therefore decide that, to some degree, transport should be
an allowable CHR activity. In this case, we recommend that the role of transport in the
CHR program be carefully and clearly defined, and that a national policy be developed
in accordance with it; the policy should then be issued by the Director of IHS.

We also suggest that PHS and tribes explore other sources of funding for transportation,
including contract health care, Medicaid, or others, so that CHRs can devote their time
to activities more directly related to health care.

Develop performance   indicators

The Chief Financial Officers Act requires the development of performance indicators,
and in response, IHS is now developing performance indicators for some programs. In
addition, as part of the reauthorization of the Indian Health Care Improvement Act,
Congress recently established voluntary targets for decreasing death and disease rates for
Native Americans, in light of concerns for increased accountability and effectiveness in
Indian health care programs. We recommend that performance indicators be developed
for the CHR program which are consistent with a revised program goal, and that the
indicators be published in Chapter 16.

Improve the SOW and CHRIS II.

Issues of accountability and oversight relative to IHS programs are particularly timely as
the regulations for P.L. 93-638 are being finalized and the relationship of the Federal
Government and tribes is being re-examined in this light. The Inspector General has


                                              14
gone on record in support of the inclusion of data collection requirements in these
regulations.

We have described a number of shortcomings causing us to question the usefulness of
the SOW and CHRIS II as management tools for this program. We recommend that
they be improved: based on a revised program goal, simplified, made to capture what
CHRs actually do, and include measures of effectiveness besides strictly number of
activities - beginning with an unduplicated count of people served. This is especially
important because we understand that IHS may replicate CHRIS II, or a similar
reporting system, in other programs. If so, every effort should be made to develop as
accurate and useful a reporting system as possible.

In order to assure effective oversight and technical assistance for this program, we also
believe that tribes should be required to submit the SOW and CHRIS II reports. These
are still optional, and some tribes continue to submit narratives instead.

Develop technical assirtance and training plans.

Under P.L. 93-638, the role of IHS is shifting away from direct service provider towards
consultation and technical assistance to tribes. It is becoming increasingly important for
IHS to work cooperatively with tribes to share knowledge and expertise so that they can
run their 638 programs effectively. We recommend the development of a more strategic
plan for providing technical assistance and training for the CHR program, based on a
more clearly defined goal and objectives. In terms of training, specifically, we believe
that training should be closely related to what CHRs are actually doing, and that it
should be focused most heavily on CHRs whose primary role is providing health care
services of some sort rather than transport.

Develop an evaluation tool and conduct periodic evaluations.

As noted in the Background, IHS has not yet developed the evaluation criteria for this
program mandated by Congress in 1983. The national CHR program has never been
evaluated, nor are formal evaluations conducted of individual programs. We recommend
that such evaluation criteria and tools be developed and applied in periodic evaluations
of both the national program and individual programs.




We suggest that PHS use the information in our report entitled “Revitalizing the CHR
Program ” in connection with this recommendation. It describes a number of factors
which respondents said should be present in strong CHR programs. Together, we
believe these factors provide a solid framework for developing a strategy to plan,
manage, and evaluate CHR programs.




                                              15 

COMMENTS

The Assistant Secretary for Planning and Evaluation (ASPE) and PHS commented on
the report. The full text of their comments is in Appendix D.

The ASPE agreed with us that more attention should be paid to the CHR program and
believes that our report provides IHS with an approach to re-examine it. Based on
technical comments they made on the text, we made some editorial changes in the
report.

The PHS concurred with our findings and recommendation to revitalize the program and
described steps that IHS has initiated to address the problems described in the report.
In addition to developing an action plan, they noted that the IHS strategy to revitalize
the program will take into account the factors described in our companion report
“Revitalizing the Community Health Representative Program,” factors found to influence
the effectiveness of CHR programs.

We thank ASPE and PHS for their comments.




                                           16 

                                                      APPENDIX                                                 A
                                                         CHR REPORT NO. 1 

                                  TfME SPENT, NUMBER SERVED, NwBER of ACTIVITIES                                              by HEALTN AREA 


                                                                     ALL AREAS
                                                                 257 Progrva codes
                                                                     AREAS: ALL
                                                 For the 52 mkr    of the fiscal  yew                                ending    9/91
                                                                Made JAN 011, 1992)

 MEALTN AREA                                                SERVICE HOURS                           TRAVEL HCURS         111)(8ER SERVED NUUBER OF ACTIV
 . . . . . . . . . . . . . ..-..........-............-...-................................................
       TOTAL                                                l,B37,C90             100%            401,921    100%       1,258,665        100%   1,9s7,37c     100%

  1    DIABETES                                                 l&B,927               B%           ss,59B     14%         3n,704           px     237,616     12X
  2    CANCER                                                     16,595              1%            6,367      2%          26,124          1%       i9,ait     ix
  3    NYPERTENSIW                                               61,290               3%           20,579      5%         259,16B          6%     134,293      n;
  4    AIDS                                                        6,648              0%            1,136      ox          CO,866          1%         C‘TJ2    OX
  5    CQWIlrIUBLE    DIS                                        26,813               1%            aa3        2%         143,551          3%      77,208      LX
  6    SUBSTANCE ABUSE                                           21,690               1%            5,121      1%          51,lOB          1%      24,636      1%
  7    -1lY        INJ CTRL                                       11,312              1%            3,94n      1%          67,132          2x       15,35L     1%
  B    PRWlIQ(,     PREVEN                                      136,312               n            27,108      n          654,665         15%     lCQ,S70      7X

91    OTNEB ELI NED                                             323.m               tax            9a,96a     tsx          886,116        21X     Cl6,3L8     21%
92    DENTAL                                                     39,705               2x           ii.as3       3x         166,022         4x      u,a94       2%
93    GERWTOLOCI CAL                                            127.197               =            39,534     10%          341,550         B%     lPl,cM      10X
94    NCN                                                       130,919               7x           3aJa9      la%         ‘399,876         9X     207,712     11%
%     MENTAL                                                     18,670               1%             c,ass      1x          38,263         1x      26,060      1%
%     ENVlROWENlAL                                               61,7J5              3%            lS.271       LX         343,469         a%      CL.767      2%

      NOT APPLICABLE                                           s72,ou              31%             CS,O%      11%         290,19a         7%      2822,256    1LX
                                                               126,656              n,             19,117      5x         170,535         4%       &,a30       LX



                                                         CHR REFORT NO. 2 

                                     TIME SPENT, WLWBERSERVED, NWBER of AClIVlT~ES                                             by SERVICE 


SERVlCE                                                       SERVICE HCURS                       TRAVEL MJRS            WER           SERVTD MMBER OF ACTIV
. . . ..-...--..........-.--..--...-...........................--.....--.-.-..--...............
      TOTAL                                                1,837,cpo             loox             C01.921    100%       4,2s8,665        100%   1,937,37b     1QOX

  1 HEALTN ED                                                  101,162              6%             12,351      3%         563,asL         13%     134,197      7X
 2 USE Fly0                                                     80,293              4X             13,286      3x         LR,CCI          11x     120,237      6%
 3wt-                                                          116,478              6%             ia,sot      5X         367,986          9x     214,051     11%
 4 WfTOB                                                       135,961              7x             a,892      12%         376,247          9x     291,691     1sx
 f EMERGENCYCARE                                                20,089              1%               3.w       1x          20,072          ox      11,658      1%
 6 NW-EMRGENCY CARE                                            126,242              n              25,a      . 6%         389,123          9x     220.432     11%
 7 -I         SERVICE                                           29,a'zp             2x               4,095     1%          16.m            1x      29.77a      2%
 8 MANS/DEL                                                    315,950             1n             193,060     68x         616,578         14x     c11,96O     21%
 9 INTERPRET                                                    17,562              1%               1,677     ox          99,101          2x      za,iki      ix
10 ENVIROWNT                                                    51,3ia              3%             It,31       3x         323,211          ax      31,425      2%

11    AD(IIN REP/REC                                           225,290             12%              a,952     2%          12c,cO9         3x      131,127      n;
12    PT. CLERICAL                                             126,nL               rX              3,aik     ix          32l,t40         B%       8&,592      LX
13    MEETINGS                                                  84,284              5%             1c.m       4%          lW,mB           5x       35,985      2x
16    TRAINING                                                 117,7&s              6X             13,212     3X           19,313         0%       25,797      1%
1s    OTMER ADMIN                                              168,552              9X             11,614     3X -        110,1cs         3x       63,963      LX
16    OTNER SERVICES                                           115,125              6%             16.255     6%          200,2Sl         sx       8r;,oa6     LX

      UNKNaW                                                       4,786             ox             1.616     OX               7,920      QX        5,251      0%
                                                                                           A -1
                                APPENDIX        B

                              INDIAN HEALTH SERVICE 

                                   CHR PROGRAM 

                              SCOPE OF WORK MATRIX 


                                   HEALTH               A   R   E- .-
                                                                   A

FY:
TRIBE: 


CHR FUNDS: 


coNTRAcr~ 


-DATE: 


PROG.CODE:,,-            -





L HEALTH EDUCATION 


zcAsE­


fCMEMANAGEMEM 


4wIbimmmrAm 


IEh4EBGmCARE 


L PATImT CARE 


1.-Mvlm 


8.TBANBmRTPATlmr 


9.lNmBmrrrlmAmLATu 


1o.mliPATImwBBavxcB3 


11.ENvIB0NMBmALsEBvxcEs 


l2.ADMlNAKANAGEMENT 


13.OBTAIN TBAlNING

      TOTAL




                                        B-l
                             APPENDIX                   C

                                      ENDNOTES



1. Indian Health Manual, 3-I6.28

2. Indian Health Manual, 3-16.13C

3. Indian Health Manual, 3-16.5A

4. Indian Health Manual, 3-16.583

5. Indian Health Manual, 3-16.9D4f

6. Indian Health Service, Community Health Representative Program; Annual Report for F&al
Year 1990, p. 1.




                                           C-l
APPENDIX        D


 AGENCY COMlMENTS




       D-l
             DEPARTMENTOFHEALTH&HUMANSERVICE!3                                 FublicHeelthselvia3

                                                                               Memorandum
Date         . M/if?2419x1
From       Acting   Assistant   Secretary    for     Health

Subject    Office of Inspector    General (OX) Draft Reports "Management
           Issues in the Community Health Representative    (CHR) Program,"
           and "Revitalizing   the CHR Program"
To
          Acting    Inspector   General,    OS

          Attached    are the Public Health Service comments on the subject
          draft   reports.    We concur with the recommendation      ko thoroughly
          re-examine     the CHR program and determine   its future    direction.
          The Indian Health Service has begun activities         to revitalize
          the program.      The attached comments discuss the actions        planned
          or taken to develop a national     strategy  to revitalize      the CHR
          program.

                                   G&J-@+
                                   Audrey   F      Manley,    M.D.,   M.P.H.
          Attachment




                                                    D-2
         PUBLIC HEALTH SERVICE IPHS) COMMENTSON THR OFFICE
  OF INSPECTOR GENERAL fOIG) DRiW!CREPORTS "MANAGEMENTISSUES IN
  THE COMMUNITY HEALTH REPRESENTATIVE PROGRAM." OEI-05-91-01071,
       AND "REVITALIZING THE COMMUNITYHEALTH REPRESENTATIVE
                       PROGRAM." OEI-05-91-01070

 General    Comments 

 The OIG reports      on the Community Health Representative                 (CHR) 

 program provide valuable           information.        They highlight     problems

 that the Indian Health Service              (IHS) is aware of and is working

 actively   to resolve.       The reports         also supported    PHS efforts      to 

 implement    long-range    initiatives         in collaboration      with the IHS 

 Headquarters     East and the Tucson-based Office               of Health 

 Programs Research and Development. 

 The IHS, in order to determine            if Area Office      CHR programs are
 meeting the intent      of Congress and program objectives,               will
 utilize   an evaluation      methodology      developed by the Oklahoma
 City Area Office.       The Oklahoma Area Office's            CHR annual
program assessment is comprised of a standardized                   table of
 scores that are derived        from a comparison of the scope of work
and data in the CHR Information              System II (CHRIS II) records.
Using this methodology,         the Oklahoma Area Office has performed
annual evaluations       to compare the progress          of individual       CHR
programs between Fiscal         Years (FY) 1990 and 1991.            Because of
the satisfactory      results     obtained     in the Oklahoma Area Office,
a version    of this management tool will            be distributed      to the
other Area Offices.
In addition,      IHS is developing    outcome and quality-oriented

evaluations     for the CHR program.       The evaluations    will be based 

on '*Healthy People 2000" objectives,         the patient   care component

of the Resource and Patient         Management System, and data 

contained    in CHRIS II. 

OIG Recommendation 

The PHS, together      with Tribes,      should thoroughly      re-examine  the 

CHR program to determine         its future    direction.     If a consensus 

is reached to revise the program, PHS should develop the 

appropriate  legislative       proposals    to do so.     If it remains as a 

broad-based  health     care program, PHS should develop a 

multifaceted   national     strategy     to revitalize    the CHR program. 

PHS Comments 

We concur and will     initiate    actions    to revitalize     the program.

IHS has begun activities        in this regard.       The Area Office CHR 

Coordinators met with IHS Headquarters           staff     the week of 

October 26, 1992, and drafted         an action plan to revitalize        the 



                                           D-3 

                                                                                        2


 CHR program.    This &aft   action plan was presented       to the Board 

 of Directors  of the National     Association     of CERs. The purposes

 of this presentation   were to (1) brief        Board members on the 

 goals and objectives   of the &aft      action plan, and (2) seek 

 Board member comments on, criticisms         of, and suggested

 improvements  to the draft   action plan. 

 The IHS' FY 1993 activities         to revitalize       the CHR program will 

 culminate   in a national      IHS/CHR Tribal       Partnership      Conference 

 which is tentatively       scheduled for late September 1993.               It is

 expected that this conference         will be attended         by IHS 

 executives    and managers, tribal        leaders,     CHRs, and.consumers. 

 At this conference,       IHS intends    to s ummarrize the findings          and 

 recommendations     contained    in the OIG reports.           Position    papers 

 on the "national     goal and objectives        of the CHR program" and 

 "role of the CHR" will be presented            also. 

In developing    a national     strategy        for revitalizing         the CHR 

program,   IHS will   carefully      consider       the factors,       identified  in 

the OIG reports,    that influence           the effectiveness         of CHR 

programs.     IHS acknowledges       that: 

       0	   The role of the CHR must be well-defined  and understood
            by tribal  governments, community members, and the IHS
            health care team.
       0	   A community-based      health care outreach  program should
            work closely     with the health care professionals   serving
            the respective      communities.  Therefore,  CHF& must be
            integrated    into the health care system.
      0	    The CHP program is a community-based,     tribally-operated
            program that can only be effective    with full      tribal
            support and direction.
      0	    IHS support and direction             is important     to make a strong
            CHR program.
The national     strategy    will   address        the   factors   mentioned   above.




                                          D-4 

           DEPARTMENT    OF HEALTH & HUMAN        SERVICES                 cmkmofttmsoc7amv

                                                                           wshhgtm. DC 2020


                                     OEC lm2

     TO:           Bryan B. Mitchell
                   Principal Deputy           Inspector   General
     FROM:         Assistant      Secretary    for
                   Planning      and Evaluation
     SUBJECT:      OIG Draft Reports:       Management Issues in the Community
                   Health Representative       Program," OEI-05-01071  and
                   "Revitalizing     the Community Health Representative
                   Program,"     OEI-05-91-01070
   The &aft         reports    on the IHS Community Health Representative
  Program present           compelling     evidence      that more attention         should
  be ljtiiii     Lu &is     program.      Your findings        are aramatic     and-the
  proposed elements of a revitalization                     strategy    provide    a
  thoughtful         framework for further          action.       The clearest     indication
  that the program could be strengthened                     is the finding      that the
 majority         of local respondents         are not familiar         with its goals and
 objectives.            Your examination       of the SOWand CHRIS II reports
 calls       into question        the usefulness      of these instruments           as
 management tools.              In addition,      the lack of integration           of CHRs
 into Native American primary care systems is particularly
 problematic.            This report provides         IHS with       an approach to begin
 examination          of the program.
We have the          following     specific       comments.
0	          The reports     document that transportation         is an important
            component of CHR responsibilities.             There exist      large,
           unexplained      discrepancies,      however, between different
           sources of information          on the proportion     of the CHR's time
           which is devoted to transportation            services.      It is not
           clear    that revision     of the program to become primarily             a
           transport     program is actually       a reasonable    option      to be
           considered     by IHS, based on these preliminary            findings.
0	          "Tribal   support and direction"          is listed  as one of the four
           key factors     influencing     CHR program effectiveness.          However,
           as noted on page 4 of the "Management Issues" report,
           only one of 15 surveyed tribal            members responded to IHS
           inquiries.      This report     would be strengthened      by an
           increased    effort    to include    tribal     input as an integral
           component of your evaluative           process.
Page 2 - Bryan B. Mitchell
0	   It would be helpful     to clarify    how information       was gathered
     from the 403 respondents.         When you  "talked    to'   respondents,
     was a questionnaire     used,   or  were these    free   flowing
     conversations7      Was a standard set of questions          used to
     base the contacts?
0	   How were the four factors          that most influence       the
     effectiveness      of CHR programs developed?            Were respondents
     presented     with a list     of factors   created by your staff?
     Were they elicited        through focus groups?          Many perspectives
     were represented      in the comments:        a  statistical     breakdown
     of the commentary would clarify          the agreement on various
     elements and assertions.
0	   The organization     of the papers is somewhat confusing.       It is
     not clear which report      should be read first,    and the reader
     often finds     it necessary to consult    one document in order to
     fully   understsd    soze of the points made in.the      other.   It
     might be preferable      to consolidate  the reports   into a single
     document, with the methods, findings        and recommendations
     clearly   organized.
0	   Your case studies     indicate    that the information    presented    in
     written    documents was sometimes contradicted        by your
     observations.      Did you ask any of the respondents to address
     the apparent discrepancy       between the written     materials   and
     your observations     on elements A and D of Factor 13
0	   References        to the presence or absence of tribal         health plans
     in the "Revitalizing"           report   are confusing    and should be
     clarified.          The discussion     of Factor 2, Element D, on page
     10 states that "as mentioned under Factor 1, Element A, we
     found no plan.'            The referenced     section  on Factor 1,
     Element A does not mention this finding,               however, and even
     states      on page 7 that "Both sites were rich in documenta­
     tion."         In the summary section       following   the individual
     discussions         of the elements,     at the bottom of page 8, there
     is also an indirect          reference    to "the absence of documents
      (like     a tribal    health plan)."




                                     D-6 

